No. 19-1078

IN THE SUPREME COURT OF THE UNITED STATES

AT&T MOBILITY LLC; NEw CINGULAR WIRELESS PCS LLC;
NEW CINGULAR WIRELESS SERVICES, INC.,

Petitioners,
v.

STEVEN MCARDLE,
Respondent.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5(b), I certify that the accompanying
Respondent’s Brief in Opposition has been served on this date on all parties required
to be served, by electronic (email) delivery in accordance with the Court’s Order dated
April 15, 2020, all parties having agreed to such service for documents filed prior to

the Court’s ruling on the petition for a writ of certiorari. Service has been made upon
the following:

Andrew John Pincus

Mayer Brown LLP

1999 K Street, NW

Washington, DC 20006

apincus@mayerbrown.com

202-263-3000

Counsel of Record for Petitioners AT&T Mobility LLC, et al.

Executed on April 24, 2020.

PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

Counsel of Record for Respondent
